Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




    NOT ALL OF KANSAS’S
     CONTROLS FOR ITS
CHILD CARE SUBSIDY PROGRAM
  CLAIMS WERE EFFECTIVE


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General
                                                    for Audit Services

                                                           July 2014
                                                         A-07-12-03182
                       Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Kansas did not always have effective controls for its Child Care Subsidy Program. We
  identified at least 1 control deficiency in 75 of 100 childcare claims reviewed and
  estimated that, as a result, the costs affected by these control deficiencies totaled
  $40.9 million ($26.1 million Federal share).


WHY WE DID THIS REVIEW

Subsidized childcare services are available to assist low-income families, families receiving
temporary public assistance, and families transitioning from public assistance to obtain childcare
so that family members can work or attend training or education. The services are administered
by each State and are funded in part by the Child Care and Development Fund (CCDF) Federal
program. A previous Government Accountability Office review revealed vulnerabilities in the
administration of the CCDF program in selected States.

The objective of this review was to determine whether the Kansas Department for Children and
Families’ (State agency) controls for client and provider eligibility determinations and for claims
processing for the Child Care Subsidy program were effective.

BACKGROUND

Each State must develop, and submit to the Administration for Children and Families (ACF) for
approval, a State plan that identifies the purposes for which CCDF funds will be expended for
two grant periods (i.e., 2 Federal fiscal years (FYs)) and that designates a lead agency
responsible for administering childcare programs. In Kansas, the State agency is the lead agency
and is responsible for administering the CCDF program at the State level, which is known as the
Child Care Subsidy program. As the lead agency, the State agency is required to oversee the
expenditure of funds by contractors, grantees, and other agencies of the Kansas State government
to ensure that the funds are expended in accordance with Federal requirements.

The State agency paid childcare claims totaling $66,876,601 for FY 2011 (October 1, 2010,
through September 30, 2011).

WHAT WE FOUND

The State agency’s controls for claims processing and for client eligibility determinations were
not always effective. Of the claims processing controls we tested, the State agency’s controls for
preventing payment to providers that had not maintained adequate client attendance records were
not effective. However, the State agency’s controls for preventing payment to providers who
were caring for their own children, for preventing payment to providers in excess of amounts
established by the State, and for documenting supervisor approval of excess rates and excess
units were effective. Of the client eligibility controls we tested, the State agency’s controls for
verifying client age and client citizenship were not effective because the controls relied largely
on self-declarations by applicants of citizenship and age eligibility. The State agency’s controls



Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                  i
for verifying family income and for verifying need-for-service eligibility were effective. All of
the State agency’s controls for provider eligibility that we tested were effective. We tested the
controls for the performance of provider background checks, for the maintenance of required
provider forms, and for the completion of provider rate agreements.

The State agency required the applicant to declare his/her citizenship and age. Unless the
information provided in the application about citizenship status or age was questionable, State
policy required the agency to accept the applicant’s statement. Eligibility policies for citizenship
and age that rely on self-declarations and do not require that an applicant present documentary
evidence present a greater potential for false claims. Moreover, the State agency did not exercise
sufficient oversight over claims processing because it did not ensure that providers maintained
attendance records to support childcare claims payments. Without sufficient written policies and
procedures and oversight, the State agency’s Child Care Subsidy program is vulnerable to fraud,
waste, and abuse.

Of the 100 claims reviewed, we determined that 75 claims showed evidence of ineffective
controls for claims processing and for client eligibility. We estimated that $40,859,722
($26,105,276 Federal share) of the Child Care Subsidy program claims could have had one or
more of the control deficiencies we identified. These deficiencies left the Child Care Subsidy
program vulnerable to fraud, waste, and abuse.

WHAT WE RECOMMEND

We recommend that the State agency improve its controls for client eligibility determinations
and for claims processing to ensure that payments for the Child Care Subsidy program are made
for eligible clients. Specifically, the State agency should take steps to:

    •   ensure that providers maintain accurate attendance records to support the childcare
        payment amounts that they claim for reimbursement by the State agency,

    •   require that citizenship and qualified alien status of all applicants be verified and
        documentation of that verification be maintained in all case files, and

    •   require that the age of all clients be verified and documentation of that verification be
        maintained in all case files.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described procedures that it had implemented or planned to implement to strengthen the
control weaknesses identified.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1
                 Childcare Services Funded by Child Care and Development Fund ................... 1
                 Kansas’s Child Care Subsidy Program ............................................................... 2

           How We Conducted This Review................................................................................... 2

FINDINGS .................................................................................................................................. 3

           Claims Processing Controls ............................................................................................ 5
                  Control Design and Testing for Provider Attendance Records .......................... 5
                  State Agency Controls for Provider Attendance Records
                    Were Not Effective .......................................................................................... 5

           Client Eligibility Controls ............................................................................................... 5
                  Control Design and Testing for Client Age Verification .................................... 5
                  State Agency Controls for Client Age Verification
                     Were Not Effective .......................................................................................... 6
                  Control Design and Testing for Client Citizenship Verification ........................ 6
                  State Agency Controls for Client Citizenship Verification
                     Were Not Effective .......................................................................................... 7

           State Agency Did Not Always Have Sufficient Written Policies
             and Procedures or Exercise Sufficient Oversight ........................................................ 8

           Costs Associated With Deficiencies ............................................................................... 8

RECOMMENDATIONS ............................................................................................................ 8

STATE AGENCY COMMENTS ............................................................................................... 9

OTHER MATTERS.................................................................................................................... 9




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                                               iii
APPENDIXES

        A: Audit Scope and Methodology ............................................................................... 10

        B: Statistical Sampling and Mathematical
           Calculation Methodology........................................................................................ 13

        C: Aggregate Federal Share Percentage ...................................................................... 14

        D: Sample Results and Estimates ................................................................................ 15

        E: Summary of Sampled Items .................................................................................... 16

        F: Federal and State Criteria Related to
           Child Care and Development Fund.......................................................................... 20

        G: Controls Tested That Were Determined
           To Be Effective ....................................................................................................... 24

        H: State Agency Comments ......................................................................................... 28




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                                    iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Subsidized childcare services are available to assist low-income families, families receiving
temporary public assistance, and families transitioning from public assistance to obtain childcare
so that family members can work or attend training or education. The services are administered
by each State and, under the provisions of the Child Care and Development Block Grant Act and
section 418 of the Social Security Act, are funded in part by the Child Care and Development
Fund (CCDF) Federal program.

A previous Government Accountability Office (GAO) review revealed vulnerabilities in the
administration of the CCDF program in selected States. The GAO report (Undercover Tests
Show Five State Programs Are Vulnerable to Fraud and Abuse, GAO-10-1062, issued
September 2010) found that the five States that it tested (Illinois, Michigan, New York, Texas,
and Washington) lacked controls for childcare assistance application and billing processes for
unregulated relative providers, leaving the program vulnerable to fraud and abuse.

For the current audit, we reviewed the Kansas Department for Children and Families’ (State
agency) controls for three interrelated aspects of its childcare assistance program: client
eligibility, provider eligibility, and claims processing. 1

OBJECTIVE

Our objective was to determine whether the State agency’s controls for client and provider
eligibility determinations and for claims processing for the Child Care Subsidy program were
effective.

BACKGROUND

Childcare Services Funded by Child Care and Development Fund

At the Federal level, the U.S. Department of Health and Human Services, Administration for
Children and Families (ACF), administers the CCDF program. Under this program, States have
considerable latitude in implementing and administering their childcare programs. Each State
must develop, and submit to ACF for approval, a State plan that identifies the purposes for which
CCDF funds will be expended for two grant periods (i.e., 2 Federal fiscal years (FYs)) and that
designates a lead agency responsible for administering childcare programs.

States provide subsidized childcare services to eligible families through certificates (vouchers) or
through grants and contracts with providers. Parents may select a childcare provider that
satisfies applicable State and local requirements. These requirements must address prevention
and control of infectious diseases, including immunizations; building and physical premises


1
 We use the term “client” to describe the child for whom the provider is being paid and the family of the child for
whom eligibility is being determined.


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                  1
safety; and certain minimum levels of health and safety training, as well as any requirements
needed for State licensing, unless the provider is exempt from the licensing requirements.

Kansas’s Child Care Subsidy Program

In Kansas, the State agency is the lead agency and is responsible for administering the CCDF
program at the State level, which is known as the Child Care Subsidy program. As the lead
agency, the State agency is required to oversee the expenditure of funds by contractors, grantees,
and other agencies of the Kansas State government to ensure that the funds are expended in
accordance with Federal requirements.

Kansas’s Child Care Subsidy program is funded with Federal CCDF funds and State general
funds. The Kansas Economic and Employment Services Manual (KEESM) establishes the
requirements, policies, and procedures used in administering the Child Care Subsidy program
regardless of the funding source (Federal CCDF funds or State general funds).

Under Kansas’s Child Care Subsidy program, the childcare subsidy 2 may be provided to children
in income-eligible families in which parents 3 are absent for a portion of the day because of
employment or participation in academic, vocational, or on-the-job training. The subsidy may
also be available for parents who are participating in the work program for the Temporary
Assistance for Families program or the Food Assistance Education and Training program. In
addition, the subsidy may be available to children who are placed in foster care or who need care
in certain family crisis situations.

Approved childcare providers include, but are not limited to, (1) licensed childcare centers,
(2) licensed childcare homes, (3) registered homes, 4 (4) in-home providers (i.e., within the
child’s own home), and (5) out-of-home relative providers. For this report, we refer to the first
three categories of approved providers as “licensed providers” and the latter two categories as
“nonlicensed providers.”

HOW WE CONDUCTED THIS REVIEW

We reviewed 100 paid childcare claims using a stratified random sample. We selected this
sample from 151,526 paid childcare claims totaling $66,876,601 (which included both Federal
and State funds) for FY 2011 (October 1, 2010, through September 30, 2011). We interviewed
State officials and reviewed applicable Federal and State laws, regulations, and available
guidance to obtain an understanding of the policies and procedures used to determine client and
provider eligibility and claims processing. We did not review the State agency’s overall internal
control structure. We reviewed only those controls that pertained to our objective.

2
    We will refer to the subsidy payments for the Child Care Subsidy program as “childcare.”
3
 45 CFR § 98.2 defines a “parent” as “a parent by blood, marriage or adoption and also means a legal guardian, or
other person standing in loco parentis ….”
4
 Kansas has elected to no longer use this provider type; however, the State allowed providers that were already
using this provider type to continue using it until they renewed their provider status or stopped providing childcare.



Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                     2
Within the areas of client and provider eligibility and claims processing, we tested the controls
that the State agency had in place to help prevent fraud, waste, and abuse. For client eligibility,
we determined whether the State agency had controls in place to help ensure that all clients met
the eligibility requirements related to citizenship or qualified alien status, age, family income,
and need for service. For provider eligibility, we determined whether the State agency had
controls in place to help ensure that all providers met the eligibility requirements related to
background checks, required forms, and provider rate agreements. For claims processing, we
determined whether the State agency had controls in place to help ensure that all claims
processed met the requirements related to providers and clients who live at the same address,
supervisory approval of excess units of childcare provided (units) and excess rates paid, units
and rates paid compared with the State agency’s authorized amounts, and the maintenance of
adequate attendance records.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, Appendix B contains details of
our statistical sampling methodology, Appendix C contains details of our calculation of the
aggregate Federal share percentage, Appendix D contains our sample results and estimates,
Appendix E contains our summary of sampled items, Appendix F provides Federal and State
criteria related to the CCDF program, and Appendix G lists the State agency’s controls that we
tested and found to be effective.

                                                   FINDINGS

The State agency’s controls for claims processing and for client eligibility determinations were
not always effective. 5,6 Of the claims processing controls we tested, the State agency’s controls
for preventing payment to providers that had not maintained adequate client attendance records
were not effective. However, the State agency’s controls for preventing payment to providers
who were caring for their own children, for preventing payment to providers in excess of
amounts established by the State, and for documenting supervisor approval of excess rates and
excess units were effective. Of the client eligibility controls we tested, the State agency’s
controls for verifying client age and client citizenship were not effective because the controls
relied largely on self-declarations by applicants of citizenship and age eligibility. The State

5
 A determination that a control is ineffective does not necessarily mean that we have made a determination that
improper payments have been made. Instead, an ineffective control means that the risk of improper payments is
greater. Likewise, a determination that a control is effective does not mean that an improper payment cannot be
made; it just means that the risk of one is lower.
6
 For each of the 100 randomly selected paid claims, we reviewed 11 specific controls for effectiveness. We
considered a control with 6 or more deficiencies (out of the 100 paid claims reviewed) as evidence of ineffective
controls and a control objective with 5 or fewer control deficiencies as evidence of effective controls. We equally
weighted all controls and made no determination that some controls were more important than others.



Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                  3
agency’s controls for verifying family income and for verifying need-for-service eligibility were
effective. All of the State agency’s controls for provider eligibility that we tested were effective.
We tested the controls for the performance of provider background checks, for the maintenance
of required provider forms, and for the completion of provider rate agreements.

The State agency required the applicant to declare his/her citizenship and age. Unless the
information provided in the application about citizenship status or age was questionable, State
policy required the agency to accept the applicant’s statement. Eligibility policies for citizenship
and age that rely on self-declarations and do not require that an applicant present documentary
evidence present a greater potential for false claims. Moreover, the State agency did not exercise
sufficient oversight over claims processing because it did not ensure that providers maintained
attendance records to support childcare claims payments. Without sufficient written policies and
procedures and oversight, the State agency’s Child Care Subsidy program is vulnerable to fraud,
waste, and abuse.

Of the 100 claims reviewed, we determined that 75 claims showed evidence of ineffective
controls for claims processing and for client eligibility. We estimated that $40,859,722
($26,105,276 Federal share) of the Child Care Subsidy program claims could have had one or
more of the control deficiencies we identified. These deficiencies left the Child Care Subsidy
program vulnerable to fraud, waste, and abuse. 7 The graph below shows the number of control
deficiencies we identified for each of the areas that we reviewed. 8


                                 Control Deficiencies Results
                          (Number of deficiencies out of 100 claims reviewed)
                                           0 5 10 15 20 25 30 35 40 45 50 55 60

       CLAIMS PROCESSING CONTROLS
                    Attendance Records                                               60
           Provider/Client Relationship     0
      Preventing Rates/Units in Excess      0
        Approval of Excess Rates/Units      0
                      CLIENT CONTROLS
                 Client Age Verification                                41                           Not Effective
         Client Citizenship Verification                                41                           Effective
            Family Income Verification               5
               Eligible Need for Service             5
                  PROVIDER CONTROLS
          Provider Background Checks             3
              Required Provider Forms        1
              Provider Rate Agreement        1



7
    We used the ineffective control deficiencies identified in our sample in our estimate of affected cost amounts.
8
  Some of the individual claims reviewed had more than 1 control deficiency, resulting in a total of 75 claims with a
total of 156 control deficiencies.


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                  4
CLAIMS PROCESSING CONTROLS

Control Design and Testing for Provider Attendance Records

The State agency should have internal controls in place to ensure that providers maintain
accurate attendance records to support the childcare payment amounts that the State agency pays
to providers. Appendix F provides criteria related to the documentation of client attendance.

Control Design

The State agency required each provider to complete daily attendance records and have them
signed by the client’s parents. The State agency also required each provider to maintain the
attendance records for a period of 3 years and to make those records available to the State agency
on request.

Control Testing

We obtained the providers’ client attendance records and calculated the number of hours of care
provided to each client reflected in those records. We then compared the calculated hours with
the hours for which the provider was actually paid to ensure that the provider did not receive
payment for more hours of care than supported by the daily attendance records.

State Agency Controls for Provider Attendance Records
Were Not Effective

Of the 100 childcare claims that we reviewed, we identified 60 claims for which the client
attendance records were not adequate. For 51 of the 60 claims, the provider either did not
respond to the State agency’s record request or the provider indicated that it did not keep
attendance records. For 6 of the 60 claims, the records lacked the daily attendance detail
necessary to calculate the hours of care provided. For 2 of the 60 claims, the providers were paid
more than 50 hours over the actual hours of care supported by the daily attendance records. For
1 of the 60 claims, the provider stated that it never provided care to the client even though the
provider received payment on behalf of the client.

Without ensuring that providers maintain detailed and complete attendance records, there was an
increased risk that the State agency overpaid providers for childcare services. The extent of
these deficiencies indicated that the State agency’s controls for attendance records were not
effective.

CLIENT ELIGIBILITY CONTROLS

Control Design and Testing for Client Age Verification

To minimize fraud, the State agency should have internal controls in place that prevent childcare
payments to providers on behalf of clients who exceed the legal age requirements. Appendix F
provides criteria related to client age.



Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                              5
Control Design

The State agency required each client to be either (1) 12 years old or younger or (2) 18 years old
or younger and physically or mentally incapable of self-care or under court supervision. State
agency policy permitted applicants to assert in the childcare subsidy application the birth date of
each applicant. State agency policy did not mandate verification of the age of every client. State
agency policy required caseworkers to verify age only in instances when questionable
information was provided. Information provided about an applicant’s age was considered
questionable if it was inconsistent with other information on the application or on previous
applications or was inconsistent with other information received by the State agency. Case files
were required to contain documentation to support the determination to approve or deny program
benefits. According to State agency policy, if the caseworker determined that no questionable
information was provided, the caseworker was required to accept the client’s self-declaration of
age.

Control Testing

We obtained access to the client files from the State agency. If the file contained documentation
of the client’s age, such as a birth certificate or passport, we verified whether each sampled client
met the age requirements and calculated the client’s age at the time of payment.

State Agency Controls for Client Age Verification
Were Not Effective

Of the 100 claims that we reviewed, we identified 41 claims for which the case files contained no
evidence beyond the self-declaration of age that the child met the Federal and State age
requirements or that the State agency had verified client age.

Without a requirement that the client’s age be verified and without a requirement that some
documentation of the verification be maintained, including documentation from the Vital
Statistics system, there was an increased risk that childcare was being provided to clients who
were not eligible. 9 As a result of the identified deficiencies, we determined that the State
agency’s controls for client age verification were not effective because self-declarations of age
increase the risk of fraudulent applications.

Control Design and Testing for Client Citizenship Verification

To minimize fraud, the State agency should have internal controls in place that prevent childcare
payments to providers on behalf of clients who are not U.S. citizens or qualified aliens.
Appendix F provides criteria related to client citizenship.




9
 “The Office of Vital Statistics receives and preserves vital records for events (births, deaths, marriages, and
divorces) which occur in Kansas.” See http://www.kdheks.gov/vital/ (accessed March 3, 2014).


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                               6
Control Design

The State agency required each client to be a U.S. citizen or qualified alien. State agency policy
permitted applicants to assert in the childcare subsidy application that they were citizens, and the
applicants were required to attest under penalty of perjury that the answers in their applications
for childcare benefits were correct and complete to the best of their knowledge. State agency
policy did not mandate verification of the citizenship of every client. State agency policy
required caseworkers to verify citizenship only in instances when questionable information was
provided. Citizenship information on the application was considered questionable if it was
inconsistent with other information on the application or on previous applications or was
inconsistent with other information received by the State agency. In these instances, the
caseworker was required to ask the applicant to provide acceptable verification of citizenship.
Case files were required to contain documentation to support the determination to approve or
deny program benefits. According to State agency policy, if the caseworker determined that no
questionable information was provided, the caseworker was required to accept the client’s self-
declaration of citizenship. If the applicant asserted in the application that he or she was a
noncitizen, the State agency required caseworkers to verify that the applicant was in a qualified
alien status.

State agency officials told us that in instances when the State agency obtained citizenship
documentation directly from the client, the State agency maintained a copy of the documentation
in the client’s file. State officials also told us that a State agency’s caseworker could manually
verify a client’s citizenship using the Kansas Vital Statistics system to determine that the client
was born in Kansas, and the State agency considered this action to constitute documentation of
citizenship (as it was proof that the individual was born in Kansas).

Control Testing

We obtained access to the client files from the State agency. We verified whether each sampled
file contained documentation of citizenship verification by looking in the case file for a copy of
any documentary evidence of citizenship or immigration status.

State Agency Controls for Client Citizenship Verification
Were Not Effective

Of the 100 claims that we reviewed, all applicants declared that they were U.S. citizens, and we
identified 41 claims for which the case files contained no evidence that the State agency had
verified client citizenship.

Without a requirement that citizenship be verified and without a requirement that some
documentation of the verification be maintained, including documentation from the Vital
Statistics system, there was an increased risk that childcare was being provided to clients who
were not eligible. As a result of the identified deficiencies, we determined that the State
agency’s controls for client citizenship verification were not effective because self-declarations
of citizenship increase the risk of fraudulent applications.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                 7
STATE AGENCY DID NOT ALWAYS HAVE SUFFICIENT WRITTEN POLICIES
AND PROCEDURES OR EXERCISE SUFFICIENT OVERSIGHT

The State agency did not require eligibility workers to verify client age and client citizenship for
all applications. Instead, State policy required workers to accept self-declarations of age and
citizenship and required verification only if the information provided in the application was
considered questionable. Moreover, the State agency did not exercise sufficient oversight over
claims processing because it did not ensure that providers maintained attendance records to
support childcare claims payments.

Although Federal law does not require documentary verification of citizenship or age for the
Child Care program, self-declarations of eligibility present a greater potential for false claims. A
strong system of internal control decreases the risk of false claims. Sufficient written policies
and procedures and oversight are key elements in a strong system of internal control. The lack of
sufficient written policies and procedures and oversight contributed to the ineffective application
of the controls we tested. Sufficient and clearly written policies and procedures can serve as a
tool to help staff understand the appropriate steps to performing critical tasks that ensure
consistent adherence to Federal and State laws and regulations and minimize the risk of fraud.
Furthermore, sufficient oversight can help ensure that providers follow the State agency’s
policies and procedures regarding the maintenance of client attendance records. Without
sufficient written policies and procedures and oversight, the State agency’s Child Care Subsidy
program is vulnerable to fraud, waste, and abuse.

COSTS ASSOCIATED WITH DEFICIENCIES

We estimated that $40,859,722 ($26,105,276 Federal share) 10 of the Child Care Subsidy program
claims could have had one or more of the control deficiencies identified in this report.

                                         RECOMMENDATIONS

We recommend that the State agency improve its controls for client eligibility determinations
and for claims processing to ensure that payments for the Child Care Subsidy program are made
for eligible clients. Specifically, the State agency should take steps to:

     •   ensure that providers maintain accurate attendance records to support the childcare
         payment amounts that they claim for reimbursement by the State agency,

     •   require that the citizenship and qualified alien status of all applicants be verified and
         documentation of that verification be maintained in all case files, and

     •   require that the age of all clients be verified and documentation of that verification be
         maintained in all case files.



10
  To calculate the Federal share, we multiplied the $40,859,722 point estimate (Appendix D) by the 63.89 percent
aggregate Federal share percentage (Appendix C).


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                               8
                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our recommendations
and described procedures that it had implemented or planned to implement to strengthen the
control weaknesses identified.

The State agency’s comments appear in their entirety as Appendix H.

                                          OTHER MATTERS

The State agency did not have procedures to ensure that providers were paid only for childcare
that was provided to clients during approved hours based on needs of service. Specifically, we
found that the State agency did not track or consistently maintain documentation that identified
what days and times clients were approved for childcare and what days and times providers
actually provided the care. Because the State agency did not track or consistently maintain this
information, we could not test the extent to which this control deficiency may have contributed
to childcare payment amounts being paid in excess of the State’s established maximum amounts.
Without ensuring that the reimbursed childcare occurred during the client’s approved schedule
based on needs of service, there was an increased risk that the State agency overpaid its
providers for childcare services provided.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                           9
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the State agency’s controls for client and provider eligibility determinations and for
claims processing for FY 2011 (October 1, 2010, through September 30, 2011). We did not
review the State agency’s overall internal control structure. We reviewed only those controls
that pertained to our objective. For our audit period, the State agency paid childcare claims
totaling $66,876,601.

We conducted fieldwork at the State agency in Topeka, Kansas, from June to December 2012.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and program guidance for the CCDF
         program;

     •   reviewed applicable State laws and the approved Kansas CCDF State plans related to the
         Child Care Subsidy program for FYs 2010 and 2011;

     •   reviewed the State agency’s ACF-696 reports 11 and supporting documentation for
         FY 2011 to determine the amount of childcare payments that were included in that FY’s
         report and the breakdown of the payments charged to each funding source (Federal or
         State funds);

     •   interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
         understanding of how the reports were prepared, how the childcare claims were reported,
         and what documentation the State agency maintained to support these claims;

     •   interviewed State agency staff to obtain an understanding of the policies, procedures, and
         guidance used to determine childcare client and provider eligibility and claims
         processing;

     •   interviewed State agency staff to obtain an understanding of the State agency’s specific
         controls for

             o client eligibility (citizenship, age, family income, and need for service),



11
  States are required to report childcare assistance expenditures to ACF on the quarterly Child Care and
Development ACF-696 Financial Report (ACF-696 report), which is a cumulative report for the FY. The ACF-696
report summarizes the total childcare assistance expenditures made by the State agency and identifies the funding
sources (Federal or State funds) that the State agency used for childcare assistance expenditures.



Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                           10
                o provider eligibility (background checks, required forms, and provider rate
                  agreements), and

                o claims processing (providers and clients living at the same address, supervisor
                  approval of excess units provided and excess rates paid, units and rates paid
                  compared with the State agency’s established amounts, and provider-maintained
                  attendance records to support paid childcare);

       •   obtained the paid claims data from the State agency for FY 2011;

       •   reconciled paid claims data with the State agency’s accounting system and the ACF-696
           reports to ensure that the childcare paid claims population that we used to perform the
           tests of controls represented the amounts that the State agency claimed for Federal
           reimbursement;

       •   divided the claims paid during our audit period into 2 strata by provider type (1 stratum
           for licensed provider types 12 and 1 stratum for nonlicensed provider types 13) and
           randomly selected 50 claims from each stratum, totaling 100 claims reviewed;

       •   reviewed the 100 randomly selected paid claims’ case files (electronic or paper) to
           evaluate the adequacy of the State agency’s controls for client eligibility determinations,
           and specifically

                o determined whether each case file contained the completed application,
                  citizenship documentation, and verification of family income and hours worked,
                  and

                o recomputed the child’s age based on date of birth and date of service to verify that
                  the child was under 13 years old, unless special needs or protective needs had
                  been documented;

       •   reviewed the provider files related to the 100 randomly selected paid claims to evaluate
           the adequacy of the State agency’s controls for provider eligibility determinations, and
           specifically determined whether each provider file contained documentation of the
           required background checks and evaluations, the required provider forms, and an
           approved provider application;

       •   reviewed the 100 randomly selected paid claims to evaluate the adequacy of the State
           agency’s controls for claims processing, and specifically (1) determined whether billing
           of more than the approved units of service per service period had supervisor approval and
           whether paid claims exceeded the approved number of units, (2) determined whether the


12
     Licensed provider types include childcare centers, childcare homes, and registered homes.
13
  Nonlicensed provider types include in-home providers who provide care in the child’s home and out-of-home
relative providers.


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                          11
        client attendance records supported the amount paid, and (3) analyzed instances in which
        the provider address and client address were the same;

    •   used the results of the claims review to determine the impact of the deficiencies in the
        ineffective controls identified using the variable appraisal;

    •   applied the aggregate Federal share percentage (see Appendix C) to the point estimate
        (see Appendix D) to estimate the Federal share of the impact of the deficiencies in the
        ineffective controls; and

    •   discussed the results of our review with State agency officials on July 25, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                               12
           APPENDIX B: STATISTICAL SAMPLING AND MATHEMATICAL
                        CALCULATION METHODOLOGY

POPULATION

The population consisted of the paid childcare claims in the State of Kansas for FY 2011
(October 1, 2010, through September 30, 2011).

SAMPLING FRAME

The sampling frame was a database of 151,526 paid childcare claims totaling $66,876,601.

SAMPLE UNIT

The sample unit was a paid childcare claim.

SAMPLE DESIGN

We used a stratified sample consisting of two strata, based on the grouped provider types.

Stratum 1 consisted of 132,723 paid claims totaling $58,217,143 paid to licensed providers.

Stratum 2 consisted of 18,803 paid claims totaling $8,659,458 paid to nonlicensed providers.

SAMPLE SIZE

We selected 50 paid childcare claims per stratum for a total of 100 paid childcare claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OIG/OAS), statistical software.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the costs associated with the control
deficiencies in total. Because the paid childcare payments included both Federal and State paid
claims, we developed an aggregate percentage to identify the approximate Federal share of the
total cost associated with the control deficiencies. We calculated the aggregate percentage by
determining the amount of childcare paid claims that were reported on each quarterly ACF-696
report for each fund type (Federal funds, State funds, and matching funds) and divided the total
Federal funds by the total paid childcare claims for the audit period (see Appendix C for the
calculation).




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                           13
                 APPENDIX C: AGGREGATE FEDERAL SHARE PERCENTAGE

         ALLOCATION OF PAID CHILDCARE CLAIMS ON ACF-696 REPORT

                                             Matching
                         Mandatory            (FMAP            Discretionary       Maintenance
                           (100%            Federal and           (100%              of Effort
         Quarter          Federal)             State)            Federal)          (100% State)
         10/1/2010–          $683,530         $6,722,973           $5,700,378         $3,336,480
         12/31/2010
         1/1/2011–             660,691          6,722,975              5,387,230       3,592,399
         3/31/2011
         4/1/2011–             978,667          7,673,664              5,154,888       2,757,597
         6/30/2011
         7/1/2011–             101,660          5,921,362              8,559,041       3,651,340
         9/30/2011
         Total              $2,424,548       $27,040,974          $24,801,537        $13,337,816

                              FEDERAL PORTION OF MATCHING

                                       Quarter             FY 2011
                                    10/1/2010–              $6,722,973
                                    12/31/2010
                                    1/1/2011–                6,722,975
                                    3/31/2011
                                    4/1/2011–                7,673,664
                                    6/30/2011
                                    7/1/2011–                5,921,362
                                    9/30/2011
                                         Total             $27,040,974
                                      FMAP rate                59.05%
                                       Federal
                                        portion            $15,967,695

                                FEDERAL SHARE PERCENTAGE

                                                  Total                              Federal
         Mandatory                              $2,424,548                          $2,424,548
         Matching                               27,040,974                          15,967,695
       Discretionary                            24,801,537                          24,801,537
   Maintenance of effort                        13,337,816                               0
   Total childcare claims                       67,604,875                          43,193,780
  Aggregate Federal Share                                                            63.89%




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                               14
                     APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                             TOTAL DEFICIENCIES

                                                           Number of Amount of
                                                            Claims       Claims
                                                    Value    With         With
               Frame              Frame     Sample   of     Control     Control
       Stratum   Size              Value     Size  Sample Deficiencies Deficiencies
          1    132,723          $58,217,143   50   $22,267     30       $11,282
          2     18,803            8,659,458   50    31,846     45         29,014

                             ESTIMATES OF CONTROL DEFICIENCIES

                        (Limits Calculated for a 90-Percent Confidence Interval)

                                                            Total Estimated Costs Associated With
                                                                     Control Deficiencies
                    Point estimate                                       $40,859,722 14
                     Lower limit                                          31,218,898
                     Upper limit                                          50,500,547




14
  As discussed in footnote 10, to calculate the $26,105,276 Federal share shown in “Costs Associated With
Deficiencies,” we multiplied this $40,859,722 point estimate by the 63.89 percent aggregate Federal share
percentage (Appendix C).


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                        15
                                                    APPENDIX E: SUMMARY OF SAMPLED ITEMS

 Sample Claim Information                 Client Eligibility Missing                  Provider Eligibility Missing                    Claim Processing Missing
           Paid      Deficient                  Eligible                  Client                                                                                   Provider/
                                   Client                    Family                  Provider    Required    Provider   Preventing      Approval of
Sample                                           Need                      Age                                                                        Attendance    Client
           Claim      Claim      Citizenship
                                                  for
                                                             Income
                                                                          Verifi-
                                                                                    Background   Provider      Rate     Rates/Units       Excess
                                                                                                                                                       Records     Relation-
Order                            Verification              Verification               Checks      Forms     Agreement    in Excess      Rates/Units
          Amount     Amount                     Service                   cation                                                                                     ship
LS1       $764.84       $0.00
LS2        110.00        0.00
LS3         53.42       53.42                                                                                                                            X
LS4        589.28      589.28        X                                      X
LS5        288.00      288.00                                                                                                                            X
LS6         40.00       40.00                                                                                                                            X
LS7        140.00      140.00        X                                      X
LS8        835.70      835.70        X                                      X                                                                            X
LS9        721.40        0.00
LS10       294.00        0.00
LS11        46.75        0.00
LS12       462.60      462.60        X                                      X                                                                            X
LS13        50.00       50.00                                                                                                                            X
LS14       255.90        0.00
LS15       266.00        0.00
LS16       752.00      752.00        X                                      X
LS17       180.00      180.00                                                                                                                            X
LS18        75.00       75.00                                                                                                                            X
LS19     1,182.50        0.00
LS20       688.00      688.00                                                                                                                            X
LS21       481.20        0.00
LS22       320.00      320.00                                                                                                                            X
LS23       748.64      748.64        X            X            X            X
LS24       183.00        0.00
LS25       273.00        0.00
LS26       281.80      281.80                                                                                                                            X
LS27       537.00      537.00        X                                      X
LS28       100.00        0.00




   Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                                                             16
 Sample Claim Information                Client Eligibility Missing                  Provider Eligibility Missing                    Claim Processing Missing
          Paid      Deficient                                            Client                                                                                   Provider/
                                  Client       Eligible     Family                  Provider    Required    Provider   Preventing      Approval of
Sample                                                                    Age                                                                        Attendance    Client
          Claim      Claim      Citizenship    Need for     Income
                                                                         Verifi-
                                                                                   Background   Provider      Rate     Rates/Units       Excess
                                                                                                                                                      Records     Relation-
Order                           Verification   Service    Verification               Checks      Forms     Agreement    in Excess      Rates/Units
         Amount     Amount                                               cation                                                                                     ship
LS29     $400.00     $400.00        X                                      X                                                                             X
LS30       168.00     168.00        X                                      X
LS31     1,200.00   1,200.00        X            X            X            X                                                                             X
LS32       599.00       0.00
LS33     1,003.75       0.00
LS34       200.00     200.00        X                                      X
LS35       607.00     607.00        X                                      X                                                                             X
LS36        85.00      85.00                                                                                                                             X
LS37        10.00      10.00        X                                      X
LS38       585.00       0.00
LS39       350.00     350.00                                                                                                                             X
LS40       172.00     172.00                                                                                                                             X
LS41     1,208.85       0.00
LS42        71.00       0.00
LS43       802.00     802.00        X                                      X
LS44       823.00       0.00
LS45     1,870.00       0.00
LS46       391.30     391.30        X                                      X
LS47       145.00       0.00
LS48       235.36     235.36        X                                      X
LS49       308.00     308.00        X                                      X                                                                             X
LS50       312.32     312.32        X                                      X
NLS1       544.00     544.00                                                                                                                             X
NLS2       184.22       0.00
NLS3       263.80     263.80        X                                      X                                                                             X
NLS4       443.76     443.76        X            X            X            X                                                                             X
NLS5       758.54       0.00
NLS6     1,003.00   1,003.00                                                                                                                             X
NLS7       441.00     441.00        X                                      X                                                                             X
NLS8     4,460.84   4,460.84                                                           X           X          X                                          X




  Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                                                              17
 Sample Claim Information                Client Eligibility Missing                  Provider Eligibility Missing                    Claim Processing Missing
          Paid      Deficient                                            Client                                                                                   Provider/
                                  Client       Eligible     Family                  Provider    Required    Provider   Preventing      Approval of
Sample                                                                    Age                                                                        Attendance    Client
          Claim      Claim      Citizenship    Need for     Income
                                                                         Verifi-
                                                                                   Background   Provider      Rate     Rates/Units       Excess
                                                                                                                                                      Records     Relation-
Order                           Verification   Service    Verification               Checks      Forms     Agreement    in Excess      Rates/Units
         Amount     Amount                                               cation                                                                                     ship
NLS9      $196.00   $196.00         X                                      X                                                                             X
NLS10      527.00     527.00                                                                                                                             X
NLS11      178.00     178.00                                                                                                                             X
NLS12      738.72     738.72                                                                                                                             X
NLS13      571.04     571.04        X                                      X
NLS14      668.00     668.00        X                                      X                                                                             X
NLS15      544.17     544.17                                                                                                                             X
NLS16      700.00     700.00                                                                                                                             X
NLS17      116.94     116.94        X                                      X                                                                             X
NLS18      223.60     223.60                                                                                                                             X
NLS19      173.70     173.70        X                                      X                                                                             X
NLS20      690.30       0.00
NLS21      606.15     606.15        X            X            X            X                                                                             X
NLS22      756.60     756.60                                                                                                                             X
NLS23       84.84      84.84        X                                      X
NLS24    1,100.00   1,100.00                                                                                                                             X
NLS25      373.10     373.10        X                                      X                                                                             X
NLS26      168.80     168.80                                                                                                                             X
NLS27    1,480.00   1,480.00                                                                                                                             X
NLS28      170.00     170.00                                                                                                                             X
NLS29      550.20     550.20        X                                      X                                                                             X
NLS30    2,855.56   2,855.56                                                                                                                             X
NLS31      469.10       0.00
NLS32    1,200.00   1,200.00        X                                      X                                                                             X
NLS33      612.00     612.00                                                                                                                             X
NLS34      775.00     775.00        X                                      X                                                                             X
NLS35       87.20      87.20                                                                                                                             X
NLS36       48.43      48.43        X                                      X                                                                             X
NLS37      158.16     158.16        X                                      X
NLS38      383.92     383.92                                                           X                                                                 X




  Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                                                              18
 Sample Claim Information                   Client Eligibility Missing                  Provider Eligibility Missing                    Claim Processing Missing
          Paid        Deficient                                             Client                                                                                   Provider/
                                     Client       Eligible     Family                  Provider    Required    Provider   Preventing       Approval
Sample                                                                       Age                                                                        Attendance    Client
          Claim        Claim       Citizenship    Need for     Income
                                                                            Verifi-
                                                                                      Background   Provider      Rate     Rates/Units      of Excess
                                                                                                                                                         Records     Relation-
Order                              Verification   Service    Verification               Checks      Forms     Agreement    in Excess      Rates/Units
         Amount       Amount                                                cation                                                                                     ship
NLS39    $729.60     $0.00
NLS40      143.42   143.42             X                                      X           X                                                                 X
NLS41      736.35   736.35             X                                      X                                                                             X
NLS42       38.32    38.32                                                                                                                                  X
NLS43      131.00   131.00                                                                                                                                  X
NLS44      426.40   426.40             X                                      X                                                                             X
NLS45      260.00   260.00             X                                      X                                                                             X
NLS46      287.06   287.06             X                                      X                                                                             X
NLS47    2,312.94 2,312.94             X                                      X                                                                             X
NLS48    1,034.24 1,034.24             X                                      X                                                                             X
NLS49      260.00   260.00                                                                                                                                  X
NLS50      180.70   180.70                          X            X                                                                                          X
 Total   $54,112.33   $40,296.38       41            5            5           41          3           1           1           0               0            60           0


  X: Claims with a control deficiency.




  Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                                                                   19
             APPENDIX F: FEDERAL AND STATE CRITERIA RELATED TO
                     CHILD CARE AND DEVELOPMENT FUND

CLAIMS PROCESSING CRITERIA

Federal Regulations

Federal regulations (45 CFR § 98.11) delegate the overall responsibility for the administration of
the CCDF program to the lead agency and specify that the lead agency ensure that all State and
local or nongovernmental agencies operate according to the rules established by the program.

Federal regulations (45 CFR § 98.43(a)) require the State to certify that the rates paid to CCDF
providers are sufficient to ensure equal access, for eligible clients, to childcare services
comparable to those provided to families who are not eligible for CCDF assistance.

State Policies and Program Implementation Guidelines

State policy (KEESM, section 10240) requires the State agency to establish maximum hourly
childcare rates that are based on periodically performed market analysis. Childcare providers are
required to charge clients the lower of the State’s maximum rates or the provider’s private rates.
The State’s maximum rates vary based on provider type, child age, and geographic region
(county).

State policy (KEESM, Appendix C-18) establishes a listing of the maximum hourly childcare
rates.

State policy (KEESM, section 10022) requires that in-home providers and out-of-home relative
providers receiving childcare funds not be the parent, guardian, or caretaker of the childcare
client. In addition, in-home providers may not be a member of the eligible family’s cash
assistance case 15 or a member of the client’s physical household.

State policy (KEESM, section 10034) requires providers to develop recordkeeping policies and
documentation of client attendance. These daily client attendance records must be signed by the
parent, and the providers must maintain them for a period of 3 years.

The State agency’s program implementation guidelines as specified in the childcare provider
application packet (KEESM, forms ES-1650, ES-1651, ES-1652, and ES-1654) state that the
provider agrees to “… [a]ccurately maintain all records as required” and allow “… access to all
such records as may be requested by the [State agency]. All records should be kept for a period
of three years, including attendance records.”




15
  The term “cash assistance case” refers to the program known as Temporary Assistance for Needy Families, which
provides cash assistance to families while they look for work as long as they meet program requirements.


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                         20
CLIENT ELIGIBILITY CRITERIA

Federal Regulations and Guidance

Federal regulations (45 CFR § 98.11) delegate the overall responsibility for the administration of
the CCDF program to the lead agency and specify that the lead agency ensure that all State and
local or nongovernmental agencies operate according to the rules established by the program.

Federal regulations (45 CFR § 98.20(a)(1)) require that a child be under 13 years old, or at the
option of the State, be under 19 years old and physically or mentally incapable of self-care, or
under court supervision, to be eligible for childcare under the CCDF program.

Federal regulations (45 CFR § 98.20(a)(2)) state that to be eligible for childcare under the CCDF
program, a client must reside with a family whose income does not exceed 85 percent of the
State’s median income for a family of the same size.

Federal regulations (45 CFR § 98.20(a)(3)) state that to be eligible for childcare assistance, a
child shall reside with a parent or parents who are working or attending a job training or
educational program, or a child shall receive, or need to receive, protective services.

Title IV of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996,
P.L. No. 104-193, as amended, prohibits individuals who are not U.S. citizens or qualified aliens
from receiving Federal public benefits. The CCDF is considered a Federal public benefit, and
citizenship and immigration status must be verified (63 Fed. Reg. 41662 (August 4, 1998)). A
Lead Agency has flexibility to establish procedures for verifying a child’s citizenship and
immigration status, but its procedures should comply with Department of Justice requirements
for verifying eligibility (62 Fed. Reg. 61344 (November 17, 1997)). See also program guidelines
at ACYF-PI-CC-98-08 and CCDF-ACF-PI-2008-01.

State Policies and Program Implementation Guidelines

State policy (KEESM, section 2810) provides that any parent of a child who has a need for child
care services and resides in Kansas may be determined eligible for childcare for a child 12 years
old or under, or up to 18 years old if the child is physically or mentally incapable of self-care or
under court supervision.

State policy (KEESM, section 1322.3) requires the eligibility worker to verify all factors of
eligibility prior to approval “only if they are questionable and affect the household’s eligibility or
benefit level. To be questionable, the information on the application must be inconsistent with
other information on the application or previous applications or inconsistent with information
received by the agency.”

State policy (KEESM, section 1322.3.2) provides that when a household’s statement that one or
more of its members are U.S. citizens is questionable, the household shall be asked to provide
acceptable verification, and if verification cannot be provided, the member whose citizenship is
questionable shall be excluded from participation.



Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                               21
State policy (KEESM, section 1321.3) requires the state agency to maintain case files that must
contain documentation to support the determination to approve or deny program benefits.
Documentation means that a written statement regarding the type of verification and a summary
of the information obtained has been entered in the case record. Such statements must be in
sufficient detail so that a reviewer would be able to determine the reasonableness of the
determination. Where verification was required to resolve questionable information, the
caseworker must document why the information was considered questionable and how the
questionable information was resolved.

State policy (KEESM, section 2140) requires the State agency to provide the Child Care Subsidy
only to clients who are citizens or who meet qualified noncitizen status.

State policy (KEESM, section 2145) describes acceptable forms of documentation of citizenship.

The State agency’s program implementation guidelines as specified in the application for
childcare benefits (KEESM, form ES-3100) direct the applicant to attest to the following
statement: “I certify under penalty of perjury that my answers are correct and complete to the
best of my knowledge.”

State policy (KEESM, section 1321) requires that simplified eligibility verification requirements
are to be followed, which is a system by which the agency accepts the applicant’s statement as
the basis of eligibility.

State policy (KEESM, section 2820) states that to be eligible the client must have a personal
need for childcare, which includes employment, attending approved schooling or training, crisis
situations, or having a child in foster care when the placement has been made with a relative not
licensed for foster care or when the child is an adjudicated juvenile offender.

State policy (KEESM, section 7440) provides that to be eligible for the childcare subsidy, an
applicant must not exceed 185 percent of the current Federal poverty guidelines based on the
household size. A monthly family share deduction shall be assessed to clients with income at or
over 70 percent of the current Federal poverty guidelines based on the household size.

PROVIDER ELIGIBILITY CRITERIA

Federal Regulations

Federal regulations (45 CFR § 98.11) delegate the overall responsibility for the administration of
the CCDF program to the lead agency and specify that the lead agency ensure that all State and
local or nongovernmental agencies operate according to the rules established by the program.

Federal regulations (45 CFR § 98.40(a)(1)) require that a lead agency certify that it has put in
effect licensing requirements applicable to childcare services provided within the area served by
the lead agency.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                             22
Federal regulations (45 CFR § 98.41) require that a lead agency certify that it has put in effect
provider health and safety requirements that are designed to protect children receiving childcare
services. Such requirements shall address the prevention and control of infectious diseases,
including immunizations, building and physical premises safety, and certain minimum levels of
health and safety training.

Federal regulations (45 CFR § 98.43(a)) require the State to certify that the rates paid to CCDF
providers are sufficient to ensure equal access, for eligible clients, to childcare services
comparable to those provided to families who are not eligible for CCDF assistance.

State Policies

State policy (KEESM, sections 10020, 10021, and 10022) describes the types of approved
licensed and nonlicensed childcare providers.

State policy (KEESM, section 10110) requires the State agency to ensure that licensed providers
are not the subject of substantiated reports of abuse and neglect. The State agency requires
licensed providers to submit to a Kansas Bureau of Investigation (KBI) criminal history check
and a Child Abuse and Neglect Central Registry (Central Registry) check at the time of
application and at any time that an individual over the age of 10 begins residing, substituting,
working, or volunteering in the licensed facility. 16, 17

State policy (KEESM, sections 10035 and 10036.3) provides that the State agency cannot enroll
a person who is listed as a prohibited person in the Central Registry or is listed in the Kansas
Adult Supervised Population Electronic Repository (KASPER). 18 This policy applies to all
providers who desire to provide childcare for eligible children.

State policy (KEESM, sections 10032, 10033, and 10036) requires applicant licensed
providers and nonlicensed providers to fill out a standardized application form before being
approved to provide childcare.




16
  The KBI collects and disseminates criminal history records to public and private agencies for the purpose of
promoting public safety and the prevention of crime in Kansas. See http://www.accesskansas.org/kbi/.
17
  State law prohibits any persons found responsible for abuse and neglect of a child or vulnerable adult from
working, residing, or volunteering in a childcare home or facility regulated by the State. These records are
maintained in the Central Registry. See http://www.dcf.ks.gov/services/PPS/Pages/Child-Abuse-and-Neglect-
Central-Registry.aspx.
18
  The KASPER is a database which contains information about offenders sentenced to the custody of the Kansas
Secretary of Corrections since 1980. See http://www.doc.ks.gov/kasper/about-us.


Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                                             23
            APPENDIX G: CONTROLS TESTED THAT WERE DETERMINED
                             TO BE EFFECTIVE

CLAIMS PROCESSING

Provider/Client Relationship

The State agency should have controls in place to prevent payments to providers for care of their
own children.

Control Design

State agency officials told us that to ensure that the State agency prevented payments to
providers who were caring for their own children, caseworkers obtained the provider’s and
client’s addresses during the application process to ensure that they did not reside together. The
caseworkers also inquired whether the provider was the parent or guardian of the child.

Test Results

For all 100 of the claims that we reviewed, we found no errors related to parents providing care
for their own children.

Control Design and Testing for Childcare Payment Amounts

The State agency should have controls in place that prevent childcare payment amounts (rates or
units) from being paid in excess of the State’s established maximum amounts.

Control Design

The State agency calculated a client’s childcare benefit amount using the lower of the State’s
market analysis rates or the provider’s private pay rate and then applied that rate to the estimated
hourly childcare units that were needed by the client during the month. Monthly units provided
were limited to 215 hours per month. After calculating the childcare benefit amount, the State
agency authorized the amount for the client’s electronic benefits transfer (EBT) account. The
client then used the EBT card to transfer payment from his or her EBT account to the provider.

Further, the State agency established system edits to help ensure that childcare payment amounts
were not paid in excess of established maximum amounts.

Test Results

For all 100 of the claims that we reviewed, we found no errors related to childcare payment
amounts (rates or units) being paid in excess of the State’s established maximum amounts.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                               24
Documentation of Supervisor Approval of Excess Units and Excess Rates

The State agency should have controls in place to prevent excess payment amounts to providers
without proper supervisor approval.

Control Design

State agency officials told us that the State agency allowed enhanced units and/or rates only in
instances when the client had been approved for an enhanced rate because of special needs. To
ensure that it met the requirements related to supervisor approval of excess units and excess
rates, the State agency developed procedures that required the client to fill out request forms that
then had to be reviewed and approved by the State agency.

Test Results

For all 100 of the claims that we reviewed, we found no errors related to supervisor approval of
excess payment amounts to providers.

CLIENT ELIGIBILITY

Family Income Verification

The State agency should have controls in place to prevent payments to providers on behalf of
clients who exceed the State-designated income amounts.

Control Design

State agency officials told us that to ensure that the State agency met the requirements related to
preventing payment to providers on behalf of clients who did not meet the State-designated
income amounts, the State agency verified income by obtaining documentation from the client’s
family, including pay stubs and employment verifications signed by the employer. The State
agency also checked various systems, including the Work Number, the Kansas Employment
Security system (unemployment benefits), the Kansas Enhanced Statewide Support Enforcement
Project (child support), and the Electronic Access to Social Security (Social Security benefits), to
identify any income that was unreported by the client’s family. The State agency also required
families to report income changes of more than $50 of unearned income, and more than $100 of
earned income, per month. In addition, the State agency reviewed each case at a minimum of
every 12 months, during which time it ensured that clients still met the State-designated income
amounts.

Test Results

Of the 100 claims that we reviewed, we determined that for 95 claims, the documentation
demonstrated that clients did not exceed State-designated income amounts. However, we
identified five claims for which the case files did not contain the client’s family income
verification.



Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                              25
Need-for-Service Eligibility

The State agency should have controls in place to prevent payments to providers on behalf of
clients who have no eligible need for service.

Control Design

State agency officials told us that to ensure that the State agency met the requirements related to
preventing payment to providers on behalf of clients with no eligible need for service, the State
agency obtained documentation from the client, to ensure that the client had an eligible need for
childcare, and maintained the documentation in the case file. Need-for-service documentation
included employment verification letters completed by the client’s employer, pay stubs, school
schedules, and similar documents.

Test Results

Of the 100 claims that we reviewed, we determined that for 95 claims, the client families’ need
for service was documented in the case files. However, we identified five claims for which the
case files did not contain adequate need-for-service documentation.

PROVIDER ELIGIBILITY

Control Design and Testing for Provider Background Checks

The State agency should have controls in place to prevent payments to childcare providers that
are the subject of substantiated reports of abuse or neglect and to protect children from such
providers.

Control Design

The State agency was required to conduct background checks of licensed and nonlicensed
childcare providers and to maintain this documentation in its files to help ensure that providers
were not the subject of substantiated reports of abuse or neglect and to ensure that providers did
not have criminal histories. For each licensed provider, State agency caseworkers were required
to check all of the provider’s employees against the Central Registry and the KBI records. For
each nonlicensed provider, State agency caseworkers were prohibited from enrolling a person
who was listed as a prohibited person in the Central Registry and/or listed in the KASPER.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                              26
Test Results

Of the 100 claims that we reviewed, we determined that for 97 claims, the background checks
were documented in the case files. However, we identified three claims for which the case files
did not contain adequate background check documentation.

Maintenance of Required Provider Forms

The State agency should have controls in place to prevent payment to providers that have not
completed all of the forms that the State agency requires.

Control Design

The State agency required each provider to complete an application packet so that the State
agency could determine the provider’s compliance with childcare rules and regulations. State
agency officials told us that they maintained scanned copies of the application packet in the
provider’s file.

Test Results

Of the 100 claims that we reviewed, we determined that the State agency maintained copies of
all of the required provider application packets for 99 of the claims. However, we identified one
claim that did not have the required provider application packet on hand in the case file.

Provider Rate Agreements

The State agency should have controls in place to prevent payment to providers at rates that
exceed the rates agreed upon between the provider and the State agency.

Control Design

The State agency required each provider to use the lower of its private childcare rate or the
State’s childcare rate, a requirement to which the provider agreed by completing and signing the
provider application packet.

Test Results

Of the 100 claims that we reviewed, we determined that the State agency maintained the signed
provider rate agreement for 99 of the claims. However, we identified one claim that did not have
the required provider rate agreement form on hand in the case file.




Kansas’s Controls for Its Child Care Subsidy Program (A-07-12-03182)                            27
                               APPENDIX H: STATE AGENCY COMMENTS 




                                                           ;.. . . . . . .:.\

                                                          """
                                                              ...........
                                                           / <Q
                                                                    i;"i{<AP~l! ~"-


                                                                 . . ....
                                                                  !"'   ill • • • •   '··!!~A>'
                                                                                            ~
 '
                                                                                                   ~




     Economic and Employment Ser vices 	
     915 SW Harrison St., Suite 580-W 	
     Topeka, KS 66612
                                                 Kansas
  .


                                                   Department for Childre n 

                                                        and Families
                                                                                                  ·~




                                                                                                         Phone: 1785) 296-3349
                                                                                                           Fax: 17851 296-6960
                                                                                                                 www.dcf. ks.gov 


     Phyllis Gilmore, Secretary 	                                                                      Sam Brownback, Governo r




      May 2 1,2014

     Mr. Patrick J. Cogley
     Regional Inspector General for Audit Services
     Office ofinspector General
     Office of Audit Services, Region V[]
     60 1 East 12'h Street
     Room0429
     Kansas City, Missouri 64 106

     Re: 	 Report Numbe r: A-07-12-03 182, U.S. Department of Health and Human Services (HHS) O ffice of
           In spector General (OIG) Audit - Not All ofKansas 's Controls for Its Child Care Subsidy Program Claims
           Were Effective
     Dear Mr. Cogley:

     Thank you fo r giving us the opportunity to provide you with additional information in response to the findings
     and recommendati ons in the OIG audit report referenced above. The audit found, in gene ral, that Kansas did
     not always have effective controls for preventing payment to providers who failed to maintain adequate client
     attendance records. Our responses and corrective actions to the recommendations are as fo llows:

                                                OIG RECOMMENDATIONS

     We recommend the State agency improve its controls for client eligibility determinations and for claims
     processing to ensure that payments fo r the Child Care Subsidy program are made for eligible clients.
     Specificall y, the State agency should take steps to:

     Recommendation: Ensure tlrat providers maintain accurate attendance records to support the cllildcare
     payment amounts that they claim for reimbursement by the State agency.

         DCF Response: We concur with the recommendatio n for DCF to provide a corrective actio n plan to ensure
         chil d care providers maintain accurate attendance records to support child care benefit s issued to parents fo r
         pay ment to providers .

         In September 2005, Kansas changed the way we administer our child care subsidy program statewide.
         Kansas moved from a retrospective method, based on time sheets completed by providers after the month of
         service, to a prospective process, based on the service plan created by eligibility workers prior to th e month
         of service. Providers enroll with the Chi ld Care Subsidy Program and then with the EBT contractor in order



                                           Strong Families Make A Strong Kansas




Kansas's Controls for Its Child Care Subsidy Program (A-07- 12 -03 182)                                                              28
     Patrick J. Cogley
     May 2 1,2014
     Page 2 of4

        to receive payments electronically. Parents apply for child care ass istance and must choose an enrolled
        provider. If eligible, parents receive an EBT Benefit card to receive and use benefits to pay providers
        directly.

        Benefit amounts iss ued to families are ca.lculated using their weekly work schedule (including travel time)
        and the child's school schedule (if applicable). These hours are entered into an electronic Child Care Plan
        Hours Worksheet (Form W-13) to obtain a reasonable estimate of the monthly hours to be authorized for
        benefits. The worksheet will calculate the hours of child care to be authorized for school months
        (September through May), and for summer months (June through August), adding extra hours each month
        to help cover days out of school (scheduled and unscheduled) for holidays, breaks, teacher in service, etc.
        The worksheet averages those extra hours for days out of school ove r the nine school months. For non­
        school age children, hours will be the san1e for all months. The worksheet is used to document how the
        average was determined, the school schedule of the child(ren), and any other fac tors used in determining the
        hours of child care needed.

        Providers and parents decide how much is owed for services and when payment should be made. The
        general rule that providers cannot charge parents receiving subsidy benefits more than private pay parents is
        applied. Providers may charge parents for ilieir child's slot and/or absent days, if iliis is consistent with the
        provider's stated private pay policy. Parents are responsible for their fam ily share amount and any
        additional charges agreed upon between themselves and their child's providers. Parents and providers work
        out all payment issues under EBT CC. Parents need to make informed choices about care, and providers
        need to make good business dec isions when deciding whom to serve. This allows parents and providers to
        mirror private sector practices more closely.

        Parents then transfer benefits to their Child Care provider based on tlle schedule they have agreed to with
        that provider. This may be monthly, weekly, bi-weekly or even dail y. Payment is made to the provider by
        the use of a POS (Point of Sale) device, by calling a toll-free phone number, or by accessing the EBT
        contractor's web portal.

         In reference to overpayments to providers for services, a more accurate description might be that because
         DCF does not better assure attendance records are kept, it is possible some parents may overpay their
         providers. Although there may be some instances of overpayment to providers, it is l ikely that based on tlle
         provider's contract wiili parents, most providers are not overpaid by parents receiving subsidy.

         Corrective action steps currently under way by DCF to ensure providers maintain accurate attendance
         records include:

         I) 	 DCF is currently working witll our workforce development contractor in the development of a web
              based training course for providers enrolling to serve fam ilies receiving subsidy. This course will
              include requirements for eruolling wi th DCF including the completion and maintenance of accurate
              timesheets.
         2) 	 ln January 2014, DCF began reviewing Regulated Provider's (Providers licensed by the Kansas
              Department of Health and Environment) enrollment with DCF every 3 years in order to keep our records
              up to date on their hours, rates and parental contracts. This enrollment process reinforces DCF
              requirements, including the completion and maintenance of accurate timesheets.


                                      Strong Families Make A Strong Kansas




Kansas's Controls for Its Child Care Subsidy Program (A-07-12-03182}                                                        29
     Patrick J. Cogley
     May 21,2014
     Page 3 of4

        3) 	 Outlier and other agency reports are being used to prioritize the review of timeshee ts and audi ting of
             providers due to staff time co nstraints. In June of 2013, we ded icated and trained one position Y:z time
             o n the compl etion of provide r audits, with a goal of 120 providers annually. From Ill /20 14 - 4115/20 14
             this staff person was able to complete 45 provider reviews.

     Recommendation: Require that th e citizenship and qualified alien status of all applicants be verified and
     documentation of that verification be maintained in all casefiles.

     Recommendation: Require that the age of all clients be verified and documentation of that verification be
     maintained in all case files.
        DCF Response: We concur that controls could be strengthened in this area.

         As the audit report confirms, states have considerable latitude in the implementation and administration of
         their child care progran1s. Within the approved CCDF state plan, Kansas policies allow for ve rification of
         client age and citizenshi p through se lf-declaratio n by the app licant. Questionable information on the
         application or previous applicatio ns or reported information that is inconsistent w ith other information
         received by the agency is requ ired to be ve rified and documented.
         We do recognize, however, that o ur controls over the verification process for bo th citizenship and age can
         be improved. To that end, we plan on expanding our monitoring of chi ld care through more invo lvement of
         both central office and fi eld staff. Plans are underway to increase o ur detection capabiliti es for false claims.
         We have recen tly hired a new ind ividual to serve as a Child Care Overpayment Detection and Prevention
         Coo rdinator, whose responsibili ties will include determining if overpayments have been made, referring
         cases to agency atto rneys fo r possible litigation and ed ucating staff, providers and clients o n preventing
         overpayme nts. In add ition , there are plans underway to add additional staff in our field offices to tighten
         mon itoring processes and review of child care to ensure that only eligible applicants obtain services.
         We also want to address specifically the cases noted in the audit report. In review of the case files pulled
         and sampled within this audit, 100% of the children have been or are currently recipients of Medicaid or SS I
         medical; programs that have a mandatory citizenship and identity verification process. Furthermore, 89% of
         the children on these same cases we re highl y likely to have had an IM indicator on their case (system
         not ificatio n) indicating that the documentation of citizenship requirement in KEESM 2 145.1 (6) was met,
         prior to child care being approved by their eligibil ity worker. This is consistent with our most recent 3
         months data, where an average of 89. 1% of our curre nt Child Care clients s hows concurrent med ical
         assistance participatio n.
         Kansas also recently completed the required Improper Payment Review of the Chil d Care program for FFY
         20 13. As discussed with the Office of Child Care and the Office of Child Care Technical Assistance
         provider (The Natio nal Center o n Chi ld Care Subsidy Innovation and Accountabil ity (NCCCSIA), the
         Kansas review was completed based on authorized child care benefits rather than paid claims to
         providers. The Sampling Plan was approved by the Office of Child Care prior to implementation of the
         FFY 20 I 3 Improper Payment Revi ew. No errors were fo und in the rev iew related to cit ize nship or age
         issues.
     Thank you again for the audit and the professionalis m of your staff. In addition to the corrective actions noted
     in our response, we will be monitorin g the imp lementation of o ur corrective action plan internally through our



                                        Strong Families Make A Strong Kansas




Kansas's Controls for Its Child Care Subsidy Program (A-07-12-03182)                                                           30
     Patrick J. Cogley
     May 21 , 2014
     Page 4 of4

     internal audit department. This should ensure corrective actions remain on schedule. Should you have any
     questions regarding our response or the status of our implementation actions, please contact Mary S. Hoover at
     (785) 296-2973 or by email at Mary.Hoover@dcf.ks.gov.
               rA<:..    -···-··-·-·····-··· ...    ·····.·· ..
   Bestregar~- ~  ------ - · ··· · ·· · · >
  ~~ lfu: · (
     Jaime   Rogers~rector,
               --          ~
                                 D            . ·i1omic and Employment Services



     CC: 	 Kathe Decker, Deputy Secretary, DCF Family Services 

           Karen Beckerman, Strengthening Family Services Director, DCF EES 

           Mary S. Hoover, Director, DCF Audit Services 





                                                   Strong Families Make A Strong Kansas




Kansas's Controls for Its Child Care Subsidy Program (A-07-12-03182}                                                  31
